     Department of Homeland Security





       FEMA Public Assistance Grant Funds Awarded to 

       South Florida Water Management District Under 

                     Hurricane Charley 





DA-12-23                                       August 2012

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                       Washington, DC 20528 / www.oig.dhs.gov


                                            AUG 2 7 2012

MEMORANDUM FOR:

                                                                    agement Agency

FROM:
                                      Assis ant Inspector General
                                      Office of Emergency Management Oversight

SUBJECT:                              FEMA Public Assistance Grant Funds Awarded to
                                      South Florida Water Management District Under
                                      Hurricane Charley
                                      FEMA Disaster Number 1539-DR-FL
                                      Audit Report Number DA-12-23

We audited Public Assistance (PA) grant funds awarded to the South Florida Water
Management District (District) (FIPS Code 000-U03CI-00). Our audit objective was to
determine whether the District accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to Federal regulations and FEMA
guidelines.

As of November 10, 2011, the Distri~t had received a PA award of $4.4 million from the
Florida Division of Emergency Management (State), a FEMA grantee, for damages
resulting from Hurricane Charley, which occurred in August 2004. The award provided
100 percent FEMA funding for the first 72-hours of emergency protective measures and
debris removal activities, and 90 percent funding thereafter for these two activities. The
award aiso provided 90 percent FEMA funding for permanent repairs to buildings, roads
                                                                                1
and flood control facilities. The award included 8 large and 15 small projects.

We aud ited eight large projects and eight small projects with awards totaling $4.3
million (see Exhibit A, Schedule of Projects Audited). The audit covered the period
August 13, 2004, to November 10, 2011, during which the District submitted claims
totaling $4.3 million. At the time of our audit, the District had completed work on all
large projects and, therefore, had submitted final claims to the State for large project
expenditures.




1   Federal regulations in effect at the time of Hurricane Charley set the large project threshold at $54,100.
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

We conducted this performance audit between October 2011 and June 2012 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
District, State, and FEMA personnel; reviewed the District’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the District’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the District’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.
                                                

                                                

                                     RESULTS OF AUDIT 


The District did not account for project expenditures on a project-by-project basis as
required by Federal regulations. In addition, the District was awarded $3.1 million for
repairs to flood control facilities that were ineligible for FEMA assistance. Finally, the
District’s claim included $24,622 in excess equipment costs.

Finding A: Project Accounting

The District did not account for large projects on a project-by-project basis. According
to 44 CFR 13.20(a)(2), fiscal control and accounting procedures of a state and its
subgrantees must be sufficient to permit the tracing of funds to a level of expenditures
adequate to establish that such funds have not been used in violation of the restrictions
and prohibitions of applicable statutes. Further, 44 CFR 206.205(b) requires that large
project expenditures be accounted for on a project-by-project basis.

The District commingled disaster-related receipt and expenditure transactions with
nondisaster transactions in its general account, with no separate accounting establishing
project balances, receipts, or expenditures. As a result, total costs claimed under
individual projects could not be readily identified and traced to supporting
documentation without direct assistance from District officials.



www.oig.dhs.gov                                     2                               DA-12-23
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

District Response. District officials generally disagreed with this finding, saying that they
had purchase orders, invoices, and the like for the costs claimed. They also said that
they now have a system in place to capture grant costs as required by Federal
regulations and FEMA guidelines.

OIG Response. Although the District may have had accounting records for project costs,
it did not establish a separate accounting of costs for each project. As described in the
finding, we could not trace specific project costs to supporting documentation without
direct assistance from District officials.

Finding B: Ineligible Project Funding

The District received $3,138,070 of project funding for permanent repairs to flood
control facilities (canals, locks, and dams) that were not eligible for FEMA assistance.
The facilities are under the United States Army Corps of Engineers’ (Corps)
Rehabilitation Inspection Program (RIP). The Corps requires that the District maintain
the facilities and determines when funding is necessary for repairs to facilities damaged
by floods, hurricanes, or storms. Federal regulations prohibit FEMA funding for facilities
that are covered under this program. Therefore, we question the $3,138,070, as shown
in table 1.

             Table 1. Ineligible Project Funding for Flood Control Facilities
             Project                                                       Amount
             Number                        Work Location                   Awarded

          Large Projects:
               4644         Canal C-31 - Lump sum contract                  $108,302
               4731         Canal C-38 - Lump sum contract                   478,265
               4965         Canal C-39 and C-40 - Lump sum contract          985,000
               5041         Canal C-41 - Lump sum contract                   598,000
               5252         Canal C-41A - Lump sum contract                  544,649
               7029         S-65A Locks and Dam Area - Lump sum contract     272,411

          Small Projects:
              4651          Canal C-37 erosion repairs                         11,518
              4652          Canal C-32C erosion repairs                         8,036
              4695          Canal C-34 erosion repairs                          2,677
              4698          Canal C-33 erosion repairs                         11,706
              4719          Canal C-29A erosion repairs                        23,630
              4729          Canal C-32F erosion repairs                         8,075
              5360          Canal C-35 erosion repairs                         40,419
              7021          S-65 Locks and Dam Area erosion repairs            45,382
              Total                                                        $3,138,070




www.oig.dhs.gov                                        3                                DA-12-23
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

Federal regulation 44 CFR 206.226(a) states that generally disaster assistance will not be
made available under the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancef
Act, as amended, when another Federal agency has specific authority to restore facilities
damaged or destroyed by an event that is declared a major disaster. In addition, FEMA
PublicfAssistancefGuide (FEMA 322, October 1999, pages 55–56) states that federally
funded flood control works are not eligible for FEMA funding. Finally, FEMA Policy
9524.3 (RehabilitationfAssistancefforfLeveesfandfOtherfFloodfControlfWorks, September
1996) prohibits emergency and permanent repairs to flood control facilities under the
RIP.

District officials said that, on the advice of FEMA officials, they sought funding from the
Corps for damages to the flood control facilities after the disaster occurred in August
2004. According to District officials, the Corps denied the request because there was no
evidence that debris or siltation decreased the channel’s hydraulic capacity to 75
percent or less of preflood capacity. District officials said that FEMA advised them to
apply for PA funding after being denied funding from the Corps. However, neither the
District nor the Corps could provide us with the denial notifications.

On October 17, 2011 (the week before the start of our audit), FEMA Region IV officials
notified the District that the permanent repair projects were ineligible for FEMA
funding. However, instead of deobligating the funds at that time, FEMA requested that
we perform an independent analysis on the eligibility of the projects.

District Response. The District disagreed with the finding, saying that the regulations do
not specifically prohibit FEMA funding.

OIG Response. We disagree with the District. Both FEMA policy and Federal regulation
describe specific costs for activities that are not eligible for FEMA funding. The types of
costs we are questioning pertain to repairs that FEMA policy and guidelines clearly state
are ineligible for FEMA assistance.

Finding C: Excess Equipment Costs

Under Project 7087, the District overstated its claim for generator use at two water
control facilities by $24,622. This occurred because of an error made when applying the
FEMA Schedule of Equipment rate. The District inadvertently applied a rate of $266 per
hour for the generators. However, the actual hourly FEMA rate for the kilowatt capacity
of the generators was $226. Federal regulation 44 CFR 206.228 (a)(1) states that
equipment rates used by the subgrantee for use of its own equipment must not exceed
FEMA’s established guidelines on eligible equipment rates. Using the equipment rate
hourly difference of $40, we question the $24,622 of excessive costs, as shown in table 2.



www.oig.dhs.gov                                    4                              DA-12-23
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                         Table 2. Ineligible Equipment Costs 

              Water Control       Hours       Excess Hourly Questioned
                Facility        Claimed          Charge        Costs
                 G372               464.00           $40.00     $18,560
                   S9               151.55            40.00       6,062
                 Total                                          $24,622


                                  RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IV: 


       Recommendation #1: Instruct the State to reemphasize to the District its need
       to account for FEMA project expenditures on a project-by-project basis as
       required by Federal regulations (44 CFR 206.205(b) and 44 CFR 13.20(a)(2))
       (finding A).

       Recommendation #2: Deobligate and put to better use $3,138,070 (Federal
       share $2,824,263) of ineligible project funding awarded under the flood control
       projects (finding B).

       Recommendation #3: Disallow $24,622 (Federal share $22,160) of excess
       equipment costs claimed under Project 7087 (finding C).


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with District, State, and FEMA officials during our
fieldwork. We also provided a draft report in advance to these officials and discussed it
at the exit conference held on June 27, 2012. District officials agreed with finding C, but
disagreed with findings A and B. Their comments, where appropriate, are included in
the body of the report. FEMA and State officials withheld comments pending receipt of
the final report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.




www.oig.dhs.gov                                    5                              DA-12-23
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report were David Kimble, Eastern Region Audit Director;
Felipe Pubillones, Audit Manager; Helen White, Auditor-in-Charge; Angelica Esquerdo,
Program Analyst; and Larry Jones, Auditor.

Please call me with any questions, or your staff may contact David Kimble, Eastern
Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                  6                             DA-12-23
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

                                                                             EXHIBIT A

                               Schedule of Projects Audited 

                         August 13, 2004, to November 10, 2011 

                       South Florida Water Management District, FL 

                           FEMA Disaster Number 1539-DR-FL


Project      Amount         Amount          Funds Put        Federal
Number       Awarded       Questioned     To Better Use       Share         Finding

 7086         $ 165,408
 7087         1,013,955         $24,622                       $    22,160     C
 4644           108,302                     $      108,302         97,472     B
 4731           478,265                            478,265        430,439     B
 4965           985,000                            985,000        886,500     B
 5041           598,000                            598,000        538,200     B
 5252           544,649                            544,649        490,184     B
 7029           272,411                            272,411        245,170     B
 4651            11,518                             11,518         10,366     B
 4652             8,036                              8,036          7,232     B
 4695             2,677                              2,677          2,409     B
 4698            11,706                             11,706         10,535     B
 4719            23,630                             23,630         21,267     B
 4729             8,075                              8,075          7,268     B
 5360            40,419                             40,419         36,377     B
 7021            45,382                             45,382         40,844     B
 Total       $4,317,433         $24,622         $3,138,070     $2,846,423




www.oig.dhs.gov                                       7                        DA-12-23
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

                                                                     EXHIBIT B 


                               Report Distribution List 

                    South Florida Water Management District, FL 

                        FEMA Disaster Number 1539-DR-FL 



Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-021)

Grantee

Executive Director, Florida Division of Emergency Management

State

Deputy Inspector General, Florida Division of Emergency Management

Subgrantee

Finance Bureau Chief, South Florida Water Management District




www.oig.dhs.gov                                8                      DA-12-23
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
